WAIVE

!It
upreme Court, U.S.
FILED

AR 1 8 2021

i

OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
No.

20-1270

Scott Erik Stafne

Bank of New York Mellon
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

_Ta131m111Xmat

Date:
(Type or print) Name Taylor T. Haywood
0 Mr.

Ms.

0 Mrs.

Firm

Akerman LLP

Address

1900 Sixteenth Street, Suite 1700

City & State

Denver, Colorado

Phone

303-260-7712

0 Miss

Zip 80202
Email taylor.haywood@akerman.com

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or co

cc:

Scott E. Stafne
239 North Olympic Avenue
Arlington, WA 98223

R CE1
MAR 2 3 2021
grjavoRy.15

